September 2, 2003

MEMORANDUM
FOR:          USAID/Philippines Director, Michael J. Yates

FROM:         RIG/Manila, Bruce N. Boyer /s/

SUBJECT:	     Follow-Up     of    USAID/Philippines’    Implementation  of
              Recommendation No. 1, Audit Report No. 5-492-99-006-P, “Audit
              of USAID/Philippines’ Response to Customs Duties on Donated
              Contraceptives,” Dated September 27, 1999
              (Report No. 5-492-03-002-S)

This is our final report on our follow-up of the implementation of
Recommendation No. 1 in the Office of Inspector General’s September 1999
report. We reviewed your comments to the draft report and included them in their
entirety as Appendix II.

Since this report does not contain any recommendations, no further action is
required of USAID/Philippines.

I appreciate the cooperation and courtesy extended to my staff during the
recommendation follow-up.
Background   For many years, USAID has donated contraceptives to the Government of the
             Republic of the Philippines’ Department of Health (DOH). For most of those years,
             the custom duties applicable to those contraceptives had essentially been handled as
             bookkeeping entries, referred to as “automatic appropriations” between Philippine
             government agencies. In essence, “automatic appropriations” is a mechanism
             whereby funds are allocated by the Philippines’ Department of Budget and
             Management to a national government agency to pay customs duties and taxes owed
             to the Philippines’ Bureau of Customs. (See flowchart at Appendix III.) However,
             in December 1997, the President of the Philippines issued Administrative Order No.
             372 (Order 372) which, as implemented by the Department of Budget and
             Management in January 1998, required that customs duties and taxes on imported
             items—including donated commodities—be financed by national government
             agencies out of their existing budgets.

             Subsequently, in February 1998, the DOH, which was covered by Order 372,
             requested that USAID suspend its shipment of donated contraceptives because the
             DOH did not have funds available to pay the required duties. Three months later, in
             May 1998, the DOH requested that, as a stopgap measure, USAID consign future
             contraceptive shipments to the United Nations Population Fund thereby taking
             advantage of the United Nations’ ability to import goods on a duty-free basis.
             USAID/Philippines agreed to this arrangement—which worked until April 1999.
             However, in April 1999, the Philippines’ Bureau of Customs challenged this
             arrangement and held up several shipments of USAID-donated contraceptives. The
             Philippines’ Department of Finance and the DOH worked out yet another stopgap
             measure that achieved the release of the contraceptive shipments.

             On September 27, 1999, the USAID Office of Inspector General (OIG) issued
             Audit Report No. 5-492-99-006-P. That report outlined OIG concerns with the
             way the Mission handled the situation concerning donated contraceptives:

                 1.    The silence of USAID’s Bilateral Agreement regarding customs duties.1
                 2.    The acceptance of short term solutions for long term problems.
                 3.    The focus on donated contraceptives rather on donated commodities.
                 4.	   The risks associated with using a United Nations organization as a
                       consignee.

             Because of these concerns, the OIG concluded that the overall issue of levying
             duties on USAID-donated commodities should have been, and still needed to be,
             addressed directly with the Philippine government. Therefore, the OIG
             recommended that USAID/Philippines develop, with the Philippines’ Department

             ________________________ 

             1
               This refers to the 1951 Agreement on Economic and Technical Cooperation between the U.S.

             government and the Government of the Republic of the Philippines. Hereafter, this agreement is

             referred to as the Bilateral Agreement. 





                                                                                                         2

               of Foreign Affairs and/or the National Economic Development Authority, an
               action plan—with targets and milestones—to eliminate the requirement that
               customs duties be paid on USAID-donated commodities.

               On October 26, 1999, USAID/Philippines submitted an action plan to close the
               recommendation in the OIG audit report. Based on the Mission’s submission,
               USAID’s Office of Management Planning and Innovation closed the
               recommendation on December 10, 1999.

               In accordance with Office of Management and Budget Circular No. A-50 and OIG
               audit policy, this recommendation follow-up was conducted to determine whether
               USAID/Philippines took effective corrective actions to justify the closure of
               Recommendation No. 1 of OIG Audit Report No. 5-492-99-006-P. Appendix I
               contains a complete discussion of the scope and methodology for this follow-up.

               Since Recommendation No. 1 was made in 1999, USAID donations of
               contraceptives to the Philippines have declined—on a cost basis— from $6 million
               to $3 million annually. In total, USAID has donated contraceptives costing $19
               million from fiscal year 1999 through fiscal year 2002. The cost of donated
               contraceptives shown for fiscal years 2003 and 2004 are projected at $3 million per
               year. In September 2002, USAID announced it would stop donating contraceptives
               to the Philippines after fiscal year 2004.

                              Cost of Contraceptives Donated to the Philippines
                                           (In Millions of Dollars)

                     6
                              6
                     5
                                        5           5
                     4                                                       estimated

                     3
                                                              3          3           3
                     2

                     1

                     0
                          FY 99     FY 00      FY 01      FY 02      FY 03      FY 04




Discussion 	   As Recommendation No. 1 of OIG Audit Report No. 5-492-99-006-P requested,
               USAID/Philippines developed an action plan with targets and milestones to
               eliminate the requirement that customs duties be paid on USAID-donated
               commodities. Based on that action plan, a management decision was reached


                                                                                                3

with the OIG, and USAID closed the recommendation. However, the Mission’s
subsequent implementation of the action plan did not justify the closure of the
recommendation because the Mission did not complete or adequately document
the corrective actions outlined in its action plan. Additionally, the Mission’s
proposed solution of using the automatic appropriations mechanism to eliminate
customs duties on USAID-donated commodities was not an ideal solution.

To respond to the recommendation, the Mission developed a 12-step action plan
(Appendix IV) aimed at eliminating customs duties on USAID-donated
commodities. The Mission implemented six steps in the action plan:

•   Establishing a working group to implement the action plan. (Step No. 1)

•	 Initiating a meeting with the Philippine National Economic Development
   Authority to discuss the issues and identify options. (Step No. 2)

•	 Developing a list of current and future Mission activities involving USAID-
   donated commodities. (Step No. 3)

•	 Identifying the Philippine government agencies involved with the USAID-
   donated commodities. (Step No. 4)

•	 Identifying three options for eliminating customs duties on USAID-donated
   commodities: (1) amending its Strategic Objective Grant Agreements to
   provide appropriate exemptions, (2) using the automatic appropriations
   mechanism for all Philippine government agencies implementing USAID
   activities, or (3) maintaining the status quo of using the automatic
   appropriations mechanism for the Philippine Department of Health (DOH)
   and dealing with customs duties and tax issues for other Philippine
   government agencies as they arise. (Step No. 6)

•	 Reviewing the Government of Republic of Philippines’ bilateral agreements
   with other donors (e.g. Japan, Australia, Canada, etc.), comparing those
   agreements with USAID’s bilateral agreement and meeting with these other
   donors, if necessary. (Step No. 7)

However, the other six steps in the action plan were either not implemented or
lacked supporting documentation to show they were implemented. Further, the
problems identified in the OIG’s September 1999 audit report could resurface
because, in the end, the Mission reverted to the status quo of using the automatic
appropriations mechanism for contraceptives donated to the Philippine DOH.
These issues are discussed in the following sections.




                                                                                4

Action Plan Not Fully Implemented
or Adequately Supported

The Mission did not implement two steps of its 12-step action plan including the
important final step. Further, the Mission did not have documentation to support
that four other steps had been completed.

Office of Management and Budget Circular No. A-50 states that one of its
principal objectives is to “To emphasize the importance of monitoring the
implementation of resolved recommendations in order to assure that promised
corrective action is actually taken.”2 The Circular requires that Federal agencies
assign a high priority to resolution of audit recommendations and to corrective
action. Further, it requires agency follow-up systems that include maintaining
accurate records of the status of audit reports or recommendations through the
entire process of resolution and corrective action.

Step No. 9 and the important final Step No. 12 were not implemented. To
eliminate customs duties on USAID-donated commodities, the action plan
indicated that the Mission chose the second option of negotiating with the
Philippine government to use the automatic appropriations mechanism for all
Philippine government agencies implementing USAID programs and not just the
DOH. The final step called for the Mission to meet with the appropriate
government agencies to establish a date for implementing the automatic
appropriations mechanism. However, this step was not carried out.

Additionally, there was either no documentation or insufficient documentation to
support that Step Nos. 5, 8, 10, and 11 were actually completed. For example,
Step No.10 called for the Mission to meet with the Philippine National Economic
Development Authority or with the Department of Foreign Affairs to discuss
options for eliminating customs duties as they may relate to the bilateral
agreement between the US Government and the Government of Republic of
Philippines. The Mission could not provide minutes of the meeting or other
documentation to support when the meeting took place, who attended the
meeting, or what was the outcome of the meeting. As another example, Step No.
8 required that the Mission meet with the Philippine Department of Budget and
Management and Bureau of Treasury to discuss the automatic appropriations
approach for handling taxes involving Philippine government agencies
implementing USAID programs. Here again, there were no records to support
that any meetings took place.


________________________ 

2
  The Circular, for most audits, defines resolution as the point at which the audit organization and 

agency management or contracting officials agree on action to be taken on reported findings and

recommendations. 





                                                                                                   5

Because the final step in the action plan (to establish a date to implement the
automatic appropriations mechanism for all Philippine government agencies) was
not completed, the Mission’s proposed solution to the recommendation in the
OIG’s 1999 audit report was never implemented. Rather, the handling of customs
duties reverted to the way things had been before Philippine Presidential
Administrative Order No. 372 was enacted in December 1997.

Before that order was enacted, the Philippine Department of Health (DOH) was
the only Philippine government agency carrying out USAID programs that was
using the automatic appropriations mechanism to pay customs duties and taxes on
USAID-donated commodities. When the Philippine government reinstated the
use of automatic appropriations, the DOH began using it again. Since the
automatic appropriations mechanism was not extended to other Philippine
government agencies as intended by the action plan, the DOH became, once
again, the only Philippine government agency using automatic appropriations to
pay customs duties and taxes on USAID-donated commodities. As noted in the
Scope and Methodology section of this report, we did not review the result of not
using the automatic appropriations mechanism for other Philippine government
agencies implementing USAID activities.

Automatic Appropriations Not
an Ideal Solution

From FY 1999 through FY 2002, the automatic appropriations mechanism has
worked effectively for USAID’s contraceptive program administered through the
Philippine DOH. However, the automatic appropriations mechanism is still
susceptible to the problems caused by Presidential Administrative Order No. 372.

One problem was that Administrative Order No. 372 required Philippine national
government agencies to pay customs duties and taxes on imported items—
including donated commodities—out of their existing budgets. In its 1999 report,
the OIG expressed concern that, while USAID policy did not proscribe the
payment of duties by host country counterparts, such payments made from the
budgets of host country counterparts would divert funds that could otherwise be
used to further USAID and host government development objectives.

However, since the 1999 reinstatement of automatic appropriations mechanism,
the DOH has not paid customs duties or taxes on USAID-donated contraceptives
from its own budget. Rather, as the chart below shows, an estimated $2 million in
duties and taxes has been paid through automatic appropriation from the fourth
quarter of fiscal year 1999 through fiscal year 2002.




                                                                               6

Customs Duties and Value Added Taxes (VAT) on Donated Contraceptives
                         (In Thousands of dollars)

      800

      700

      600   [Th
      500   (through aut
            $271,000 i       503           539                            VAT
      400   dut
                                                                          Duties
      300   dut
            cust 271                                     279
      200   cust
      100                    167           169
                 84                                       96
        0
            4th Qtr. FY 99   FY 00         FY 01        FY 02


Administrative Order No. 372 created a second problem that affected the DOH’s
use of the automatic appropriations mechanism in fiscal year 1999: The detention
of USAID-donated contraceptives in Philippine customs. The contraceptives
were detained because the DOH was unable to pay the required customs duties
and taxes from its own budget. Here again, however, the reinstatement of the
automatic appropriations has eliminated this problem. Specifically, shipping and
receiving records—from August 1999 to June 2002—showed that only 1 of 46
shipments of USAID-donated contraceptives experienced a delay in Philippine
customs. That lone delay was caused by personnel changes at the DOH.




       Photograph of OIG auditors, and Mission and DOH officials
       inspecting contraceptives stored in a DOH warehouse (Manila,
       Philippines, January 2003).



                                                                                   7

Since the Philippine government reinstated the automatic appropriations
mechanism, neither USAID nor the DOH has paid customs duties on USAID-
donated contraceptives. Therefore, delays in the release of contraceptives have
not been a problem. However, the Philippine government could once again
rescind the use of the automatic appropriations process. Thus, the DOH could
once again be required to pay customs duties and taxes on USAID-donated
contraceptives out of its own budget, and could once again experience detentions
of those contraceptives in customs. Should this occur, USAID’s contraceptive
program in the Philippines could once again be adversely affected.

Recent Legislation and Current
Agreements

Recent U.S. Congressional legislation addresses the imposition of customs duties
and value added taxes on commodities financed with U.S. assistance. Section 579
of Public Law 108-7 states that no funds appropriated under the public law may
be made available to a foreign country under a new bilateral agreement unless
such agreement includes a provision stating that assistance provided by the U.S.
shall be exempt from taxation, or reimbursed by the foreign government. Section
579 also requires the Secretary of State to expeditiously seek to negotiate
amendments to existing bilateral agreements, as necessary, to conform to this
requirement. Further, Section 579 directs the Secretary of State to issue rules,
regulations, or policy guidance, as appropriate, to implement the prohibition
against the taxation of assistance contained in this section.

The Mission has several Strategic Objective Grant Agreements (SOAGs) with the
Philippine government. The SOAG for the Integrated Family Planning Maternal
Health Program, for example, includes a tax exemption provision that covers
USAID-donated contraceptives. The Mission’s other SOAGs contain similar
exemption provisions for USAID-donated commodities. Although the SOAGs
have tax exemption language, the exemption language is not as comprehensive as
that normally required by Automated Directives System Chapter 350. These
SOAGs have various completion dates. For example, the Integrated Family
Planning Maternal Health Program SOAG has a completion date of December 31,
2003.

In 2002 the Mission began replacing its SOAGs with Memorandums of
Understanding that do not provide any exemptions from customs duties or taxes
for USAID-donated commodities. According to the USAID Regional Legal
Advisor, the Mission is negotiating with the Philippine government to amend the
Memorandums of Understanding to provide tax exemptions similar to the ones in
the SOAGs. The Regional Legal Advisor also stated that the Mission would
extend the completion dates of SOAGs, as necessary, to ensure the Mission is




                                                                              8

             covered by the tax exemptions in those agreements while the MOUs are amended
             to include tax exemptions.

             As noted in the OIG’s 1999 report, the Bilateral Agreement between these two
             countries—signed in 1951—does not explicitly state that USAID-donated
             commodities will be free from taxes and customs duties. While not unique in this
             regard, U.S. bilateral agreements with other countries do contain such
             exemptions. And other countries such as Germany and Canada do have duty and
             tax exemption provisions in their bilateral agreements with the Philippine
             government. Consequently, the OIG is still concerned about the silence of the
             Bilateral Agreement regarding customs duties.

             However, as noted above, the Secretary of State has been directed to issue
             appropriate rules, regulations or policy regarding customs duties and value added
             taxes levied on commodities financed with U.S. assistance.



Conclusion   As Recommendation No. 1 of OIG Audit Report No. 5-492-99-006-P requested,
             USAID/Philippines developed an action plan with targets and milestones to
             eliminate the requirement that customs duties be paid on USAID-donated
             commodities. However, closure of the recommendation was not subsequently
             justified because the Mission did not implement or adequately document the
             corrective actions outlined in its action plan.

             Since the reinstatement of the automatic appropriations mechanism, the DOH has
             not had to pay duties and taxes on USAID-donated contraceptives from its own
             budget and those contraceptives have not experienced customs delays. However,
             the DOH is still at risk of having to pay customs duties and taxes out of its own
             budget, and still at risk of customs delays if it cannot afford to pay those duties
             and taxes. Should this occur, USAID’s contraceptive program in the Philippines
             could once again be adversely affected.

             We are not reopening the original recommendation or making any new
             recommendations at this time for three reasons. First, we did not identify any
             adverse effect from the current arrangements for contraceptives, and
             USAID/Philippines plans to stop donating contraceptives to the Philippines after
             fiscal year 2004. Second, as in the original audit, we did not review the situation
             regarding USAID-donated commodities other than contraceptives. Third, the
             U.S. Congress has directed the U.S. Secretary of State to issue appropriate rules,
             regulations or guidance regarding the imposition of customs duties and value
             added taxes on commodities financed with U.S. assistance. Nevertheless, we are
             making the following suggestions:




                                                                                              9

                 	 We suggest that USAID/Philippines maintain complete records of the status of
                    recommendations through the entire process of resolution and corrective
                    action.

                 	 Pending direction from the Secretary of State on the implementation of
                    Section 579 of Public Law 108-7, we suggest that USAID/Philippines
                    continue negotiating for its Memorandums of Understanding appropriate
                    exemptions for USAID-donated commodities from customs duties.


Management
                 In response to our draft report, USAID/Philippines provided written comments
Comments and     that are included in their entirety as Appendix II. Most of the Mission’s
Our Evaluation   comments pertain to one of the suggestions made to the Mission in the draft
                 report. Below, we address the more pertinent Mission comments.

                 The OIG suggested that the Mission maintain complete records of the status of
                 recommendations through the entire process of resolution and corrective action.
                 This suggestion was made because this review found that the Mission had not
                 fully implemented or adequately documented the steps in the action plan it
                 submitted in response to Recommendation No. 1 of OIG Audit Report No. 5-492-
                 99-006-P. However, the Mission believed that it did maintain appropriate records
                 through the entire recommendation follow-up process because it prepared and
                 presented for management decision and final action an action plan as required by
                 the recommendation. The Mission added that based on that action plan,
                 RIG/Manila had agreed to a management decision and M/MPI had issued final
                 action on the recommendation. We disagree.

                 While Recommendation No. 1 called for an action plan, the recommendation and
                 the audit report make clear that the sought after corrective action was the
                 elimination of custom duties on USAID-donated commodities. The action plan
                 itself would not eliminate those duties. Rather, only by implementing the steps in
                 the action plan would the desired objective of eliminating customs duties be
                 accomplished. RIG/Manila agreed to a management decision because, after
                 reviewing the action plan, we reasonably believed that the customs duties would
                 be eliminated if the action plan was carried out. Similarly, we believe that M/MPI
                 had the same expectation when it issued final action.

                 As noted in this report, one of the principal objectives of Office of Management
                 and Budget (OMB) Circular No. A-50 is to emphasize the importance of
                 monitoring the implementation of recommendations to assure that promised
                 corrective action is actually taken. The Circular further requires agency follow-up
                 systems that include accurate records of the status of audit reports or
                 recommendations through the entire process of resolution and corrective actions.
                 The action plan contained the Mission’s promised actions to achieve the
                 elimination of customs duties on USAID-donated commodities. Consequently, to


                                                                                                 10

comply with the OMB Circular, the Mission should have maintained complete
records of the status of the recommendation through the implementation of the
action plan and the elimination of the customs duties.

As noted above, the review found that two steps in the action plan were not
implemented.      Additionally, there was no documentation or insufficient
documentation to support that four other steps were actually completed. The
Mission acknowledged that the two steps were not implemented, but added that
they were not implemented because the steps were no longer necessary based on
the course of action it chose to eliminate customs duties on USAID-donated
commodities. Consequently, the Mission felt it was compliant in implementing
the action plan to respond to Recommendation No. 1. However, if the steps were
no longer necessary, the “Status/Action Taken” column of the action plan should
have been updated or other documentation maintained to explain why it was no
longer necessary to implement the steps. Since this was not done, there was no
such recorded explanation. Further, we do not agree that one of the steps—Step
No. 12— was no longer necessary. Rather, we believe that Step No. 12 was
applicable to whatever course of action the Mission chose and, thus, should have
been implemented.       The Mission’s comments did not address the lack
documentation or insufficient documentation for the other four steps.

We appreciate the Mission’s comments, but we did not make any changes to the
report based on those comments. Additionally, we believe that our differences
discussed above could have been readily resolved had complete records been
maintained of the implementation of the action plan.




                                                                             11

(This page intentionally left blank)




                                       12 

                                                                               Appendix I


Scope and
              Scope
Methodology
              The Regional Inspector General/Manila conducted this recommendation follow-
              up to determine whether USAID/Philippines took effective corrective actions to
              justify the closure of Recommendation No. 1 of Audit Report No. 5-492-99-006-
              P, “Audit of USAID/Philippines’ Response to Customs Duties on Donated
              Contraceptives,” issued by RIG/Manila on September 27, 1999. This
              recommendation follow-up was not an audit. Fieldwork was conducted at
              USAID/Philippines and the Philippines’ Department of Health (DOH) from
              January 14, 2003 to April 24, 2003.

              This recommendation follow-up was limited to imported contraceptive
              commodities because the OIG’s 1999 audit report focused on contraceptive
              commodities.

              Methodology

              We interviewed officials from USAID/Philippines including the Regional Legal
              Advisor and officials of the Philippines’ DOH. We reviewed Audit Report No. 5-
              492-99-006-P and its related working papers. At USAID/Philippines, we
              reviewed the Mission’s 12-step action plan dated February 23, 2000, and
              supporting documentation. We reviewed records pertaining to the value of
              contraceptives donated to the Philippines and the amount of customs duties and
              taxes paid on those contraceptives via the automatic appropriations process. We
              also reviewed (1) the Bilateral Agreement between the U.S. government and the
              Philippine government, (2) Strategic Objective Agreements and Memorandums of
              Understanding between the Mission and the Philippine government, and (3)
              bilateral agreements between the Philippine government and other countries. At
              the DOH, we reviewed contraceptive shipment records, inspected stored
              contraceptives, and obtained documentation on the automatic appropriations
              process.




                                                                                          13 

(This page intentionally left blank)




                                       14 

                                                                                Appendix II



Management
Comments
                     U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT
       8/F, PNB Financial Center                                  Tel. Nos. : (632) 552-9800
       Roxas Boulevard 1308                                                   (632) 552-9900
       Pasay City, Philippines                                    Fax no. : (632) 551-9297
                                                            August 14, 2003
MEMORANDUM:


To      :	        Bruce N. Boyer
                  RIG/Manila

                  /s/
FROM: 	           Michael J. Yates
                  Mission Director
                  USAID/Philippines

SUBJECT:          Draft Report
                  Follow-up of USAID/Philippines’ Implementation of Recommendation No. 1, 

                  Audit Report No.5-492-99-006-P, “Audit of USAID/Philippines’ Response 

                  to Customs Duties on Donated Contraceptives,” 

                  dated September 27, 1999 


REFERENCE:        RIG/Manila Memo dated July 02, 2003, received July 03, 2003


The Mission appreciates RIG/Manila’s efforts in: (a) conducting a follow-up of
Recommendation No. 1 of Audit Report No. 5-492-99-006-P to determine whether
USAID/Philippines took corrective actions to justify closure of this recommendation; and (b)
advising us that the report did not have any recommendations that would require any action by
the Mission, although it did include 2 suggestions for the Mission’s consideration.

As requested in the referenced memorandum, listed below are our comments in response to
the following points raised in your draft report:

1. 	 Page 10, first paragraph, which reads: “We suggest that USAID/Philippines maintain
    complete records of the status of recommendations through the entire process of resolution
    and corrective action.”

     Recommendation No. 1 of Audit Report No. 5-492-99-006-P which became the basis for
     RIG’s follow up-work states: “We recommend that USAID/Philippines develop, with the



                                                                                               15

                                                                               Appendix II

Philippines’ Department of Foreign Affairs and/or the National Economic Development
Authority an action plan—with targets and milestones—to eliminate the requirement that
customs duties be paid on USAID-donated commodities.”

In response to your suggestion, we have re-examined Mission audit records with an
emphasis on analyzing the records within the context of this recommendation. Based on
this latest examination, we believe that the Mission has maintained appropriate records
throughout the entire audit recommendation follow-up process, which per ADS 595.3.1,
consists of 3 stages, namely: no management decision, management decision, and final
action. As you know, the terms “resolution” and “closure,” were replaced by the terms
“management decision” and “final action.” The ADS presents the following definitions for
these terms:

Corrective Action: Measures taken to implement audit findings and recommendations.

Management Decision: The evaluation of a recommendation by management and a
decision upon an appropriate course of action.

Final Action: Based on a management decision, the completion of all actions that are
necessary to resolve and implement findings and recommendations of an audit report.

The following actions, which were taken by the Mission in response to the audit
recommendation, led to our conclusion that the Mission maintains adequate records and
responded appropriately to the recommendation:

a) The Corrective Action required in the recommendation was to develop an Action Plan.

b) 	The Management Decision required was for the Mission to agree to the development of
    an Action Plan. The Mission did agree to this and such was relayed to RIG in its
    Comments to the Draft Audit Report that contained the above recommendation. This
    was accepted by RIG and reflected in the Final Audit Report (issued September 27,
    1999), which stated: “Based on the above, USAID/Philippines has made a management
    decision on the one audit recommendation in this report.”

c) 	 The Final Action required was for the Mission to show that it developed an Action Plan
     on the basis of its Management Decision. The Action Plan, which was developed in
     October 1999, constituted the Mission’s final action on the recommendation. As such,
     this Action Plan became the Mission’s documentation and basis for justifying its request
     for M/MPI’s closure of Recommendation No. 1.

Therefore, from management decision to final action, the Mission complied with
Recommendation No. 1 by developing an Action Plan. The appropriate documentation
which was maintained was the Action Plan itself. The original Action Plan, dated and
submitted to M/MPI in Oct. 1999 is on file in the Mission. This Action Plan also became
M/MPI’s basis for closing Recommendation No. 1. In October 1999, when the Action Plan



                                                                                           16

                                                                                 Appendix II

   was developed and submitted to MMPI, the steps detailed in that Action Plan had yet to be
   implemented. At that point in time therefore, it would not have been possible for the
   Mission to make available all records that would have supported these planned steps,
   which had targeted dates for implementation of beyond October 1999.

   While it was impossible for the Mission to document implementation steps at the time
   M/MPI closed the audit recommendation, the Mission did follow through with
   implementation of the Action Plan it had submitted to M/MPI. Therefore, the Mission was
   compliant, in both developing and implementing an action plan to respond to the audit
   recommendation. In implementing the action plan, the Mission selected and used what it
   believed was the most feasible option for dealing with the problem of customs duties on
   USAID-donated commodities, the GOP’s automatic appropriation mechanism for covering
   the cost of such duties. Please note that the original Action Plan consisting of 12 steps,
   which had been developed by the Mission and submitted to M/MPI in October 1999, had
   continued to evolve over time and was reduced to 10 steps. An explanation of this change
   is offered in Item 2 below.

2. Page 5, paragraph 3

   We acknowledge the fact that some of the steps in this 12-step plan were not undertaken.
   These steps were no longer thought to be necessary since the most feasible option had
   already been selected.

   The report stated: “Step No. 9 and the important final Step No. 12 were not implemented.”
   As shown in the Action Plan of February 23, 2000, Step 9 involved a plan to “Meet with the
   US Embassy and seek their assistance if one of the options being considered is for the US
   to seek parity treatment from the GOP,” while Step 12 involved a plan to “Meet with the
   concerned GOP agencies and establish implementation date.” Since the automatic
   appropriation mechanism - which the Mission had selected to be the most feasible of all the
   options identified - did not require the US to seek parity treatment from the GOP, there was
   no longer a need to undertake Step 9. In the same token, Step 12, which was planned to
   be undertaken after Step 9 had been implemented, also became an unnecessary step.

3. Page 2, second paragraph, second to the last sentence.

   The Mission would like to clarify the statement under this section.

   The reason for the hold-up of some shipments at port was because there was a change in
   consignee to the DOH, instead of the UNFPA, therefore the clearance process had to
   follow the longer DOH documentation and processing procedure.

4. Page 6, paragraph 2, second to the last sentence.

    The Mission would like to reiterate our comments below, relayed to RIG in an earlier
    meeting to discuss the draft report.



                                                                                             17

                                                                               Appendix II


   The GRP automatic appropriation mechanism is extended to all national government
   agencies. Section 13 of the GOP’s General Appropriations Act (GAA) states:

   “Sec. 13. National Internal Revenue Taxes and Import Duties. National internal revenue
   taxes and import duties, including value-added taxes on importation payable by national
   government agencies to the National Government arising from foreign donations, grants
   and loans are deemed automatically appropriated…”

   At the time the audit was performed, Strategic Objective (SO) 3 was the only Mission SO
   which was providing donated commodities with a GOP counterpart agency, as the
   consignee. Therefore, there was no opportunity for application of the automatic
   appropriation mechanism to other SO Team implementing entities.

5.	 In relation to item 4 above, we believe that it could be verified with the Department of
    Budget and Management (DBM) that other GOP government agencies could utilize the
    automatic appropriation mechanism. If the DBM verifies the availability of the automatic
    appropriation mechanism for other GOP Agencies, then the audit report would be accurate
    in its statement that only the Department of Health was using the mechanism; however, it
    would be inaccurate to state that the automatic appropriation mechanism had not been
    extended to other GOP Government Agencies.




                                                                                             18

                                                                             Appendix III



Flowchart of the Automatic Appropriations Mechanism3


     Philippine Department of Health (DOH)
     submits to Philippine Bureau of Customs
     (BOC) a “Certificate of Undertaking” with
     tentative computation of the customs duties
     and taxes, and the shipping documents for the
     USAID-donated contraceptives.




     BOC releases the donated contraceptives and
     sends a statement of account to DOH for
     collection of customs duties and taxes. (The
     statement of account shows the actual
     computation of customs duties and taxes.)



     DOH submits an allotment request to
     Philippine Department of Budget and
     Management (DBM) to cover payment of
     customs duties and taxes due to BOC.



     DBM issues to DOH a “Special Allotment
     Release Order” covering the transaction. (An
     accounting entry adding the allotment to
     DOH’s budget.)



     DOH issues a journal voucher to BOC for
     payment of customs duties and taxes.


   ________________________ 

   3
     Section 13 of the General Appropriations Act of the Philippine government stipulates that

   national internal revenue taxes and import duties, including value-added taxes on importation

   payable by national government agencies to the National Government arising from foreign

   donations, grants and loans are deemed automatically appropriated. This flowchart based on 

   information obtained from the Philippines’ Department of Health. 





                                                                                            19

(This page intentionally left blank)




                                       20

                                                                                                                    Appendix IV

                                                              USAID/Philippines 

                                            Mission’s Action Plan for USAID-Donated Commodities 

                                                            As of February 23, 2000

           Activities/Milestones                Original Target   Revised Target     Actual     Responsible        Status/Action Taken
                                                 Completion        Completion      Completion   Office/Person         (To be Taken)
                                                     Date              Date           Date
1. Establish a Commodities Working                 10/30/99                         10/4/99     Mission Mgt.    Action Completed
   Group
2. Initial Meeting with NEDA to discuss            10/15/99                         10/5/99     Mission Mgt.    Action Completed
   the issues and identify options.
3. Obtain a list of current and future             11/08/99                         11/22/99     Commodities    Action Completed
   activities involving commodities.                                                            Working Group
4. Identify the GOP-recipient agencies for         11/08/99                         11/22/99        -do-        Done for SOs1-5
   these commodities
5. Meet with these agencies and determine          11/22/99                         11/22/99        -do-        Each FA to relay to their
   problems currently encountered in the                                                                        respective SO teams the
   receipt and release of these                                                                                 need to meet with the GOP
   commodities from the BOC.                                                                                    recipient agencies and
                                                                                                                discuss any problems
                                                                                                                encountered in the receipt
                                                                                                                and release of commodities
                                                                                                                from the BOC.
6. Identify various options to eliminate           11/22/99                         11/22/99        -do-        Three options were
   requirement for customs duties payment                                                                       identified, namely: a)
   on USAID-donated commodities.                                                                                Amend the
                                                                                                                Bilateral/SOAGs; b)
                                                                                                                Negotiate with the GOP the
                                                                                                                automatic appropriation
                                                                                                                mechanism to all GOP IAs;
                                                                                                                and c) Maintain status quo.
7. Review the GOP’s bilateral agreements           12/15/99                         2/15/00         -do-        Multilateral agencies (WB,
   with other donors (e.g. Japan, Australia,                                                                    ADB, UN system) are tax
   Canada etc.) and compare with                                                                                exempt as these are covered
   USAID’s; meet with these donors, if                                                                          by multilateral agreements.
   necessary.                                                                                                   Copies of the GOP’s
                                                                                                                bilateral agreements with
                                                                                                                Australia, Germany,
                                                                                                                Belgium, Japan, and Canada
                                                                                                                being reviewed in the
                                                                                                                Mission. For Australia,
                                                                                                                ratification of its agreement
                                                                                                                took 4 years; Japan adopts
                                                                                                                the automatic appropriation
                                                                                                                mechanism.
8. Meet with DBM and the BTR to                    12/15/99                         1/28/00         -do-        Preliminary meeting with a
   discuss the automatic appropriation                                                                          brief discussion on taxes,
   approach for handling taxes involving                                                                        held at DOF on 1/28/00.
   USAID-funded GOP agencies.                                                                                   Participants included DOF,
                                                                                                                DBM, BTR, DA, DENR and
                                                                                                                USAID. Further discussions
                                                                                                                on this to be made during
                                                                                                                the next meeting with DOF
                                                                                                                & other GOP agencies – to
                                                                                                                be scheduled in March.
9. Meet with the US Embassy and seek               01/30/00                                         -do-        Acting Dep. Dir. MYates to
   their assistance if one of the options                                                                       meet with Terry Breese of
   being considered is for the US to seek                                                                       the U.S. Embassy and
   parity treatment from the GOP.                                                                               discuss the options
                                                                                                                identified by the Mission.
10. Meet with NEDA or with the DFA to              01/30/00                         2/16/00         -do-        USAID meeting with NEDA
    discuss options as they may relate to the                                                                   held 02/16/00 – NEDA
    bilateral agreement between the USG                                                                         agreed in principle to the
    and the GOP.                                                                                                automatic appropriation
                                                                                                                mechanism as the most
                                                                                                                appropriate long-term
                                                                                                                solution. This is currently




                                                                                                                                        21

                                                                                                                 Appendix IV

           Activities/Milestones             Original Target   Revised Target     Actual     Responsible        Status/Action Taken
                                              Completion        Completion      Completion   Office/Person         (To be Taken)
                                                  Date              Date           Date
                                                                                                             being done by the Japanese.
 11. Determine and recommend to Mission         02/15/00                                         -do-        Automatic appropriation
     management the best and most feasible                                                                   mechanism determined to be
     option.                                                                                                 the best and most feasible
                                                                                                             option.
 12. Meet with the concerned GOP agencies       03/15/00                                         -do-        To be undertaken after
     and establish implementation date.                                                                      ADD’s meeting with
                                                                                                             TBreese



List of acronyms used in the Action Plan:

ADB -              Asian Development Bank 

ADD -              Acting Deputy Director 

BOC -              Bureau of Customs 

BTR -              Bureau of Treasury 

CWG -              Commodities Working Group

DA   -             Department of Agriculture     

DBM -              Department of Budget and Management

DENR -             Department of Environment and Natural Resources 

DFA -              Department of Foreign Affairs 

DOF -              Department of Finance 

FA   -             Financial Analyst 

GOP -              Government of the Philippines 

GOPIAs             -                 Government of the Philippines’ Implementing Agencies 

NEDA -             National Economic Development Authority 

SO   -             Strategic Objective    

SOAGs-             Strategic Objective Grant Agreements 

UN   -             United Nations

USG -              United States Government 

WB   -             World Bank


Notes on Responsible Office/Person:

1) Mission Management was responsible for steps 1 and 2.
2) The Commodities Working Group was responsible for steps 3 through 12.




                                                                                                                                   22

